                         SOCIAL SECURITY
                           Office of the Inspector General

                                November 14, 2001


The Honorable E. Clay Shaw, Jr.
Chairman, Subcommittee
 on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Shaw:

In response to your July 10, 2001 letter, I am pleased to provide you the
requested information on the Social Security Administration’s (SSA) stewardship
efforts and program savings generated by those efforts.

As a steward of taxpayer dollars, SSA is accountable to both the American
public and the Congress for how it spends and safeguards public monies and
has the further responsibility to ensure each eligible beneficiary receives the
proper benefit payments. As SSA’s workloads increase and the Social Security
trust funds are further stressed, it will become more imperative that SSA
effectively balance its desire to serve the public with its responsibility of ensuring
program integrity.

In responding to your request, we relied on information developed in past audits,
analyzed SSA’s administrative expenditures and methodology for distributing
program cost to individual strategic goals, and reviewed methods for calculating
the cost and benefits derived from the following Agency activities:

   ·   Office of Child Support Enforcement match,
   ·   Supplemental Security Income redeterminations,
   ·   disability preeffectuation reviews,
   ·   windfall elimination/Government pension offset matches with the Office of
       Personnel Management,
   ·   tax refund offset, and
   ·   continuing disability reviews.

The work we performed does not constitute an audit, but rather a limited review
of the reasonableness of program savings reported by SSA. The enclosed




       SOCIAL SECURITY ADMINISTRATION           BALTIMORE MD 21235-0001
Page 2 — The Honorable E. Clay Shaw, Jr.

report contains our insights and conclusions regarding the extent of SSA’s
stewardship efforts and the reported benefits resulting from the aforementioned
activities.

If you have any questions or would like to be briefed on this issue, please call
me or have your staff contact Richard A. Rohde, Special Agent-in-Charge for
External Affairs, at (410) 966-1722.

                                             Sincerely,




                                             James G. Huse, Jr.
                                             Inspector General of Social Security

Enclosure
 CONGRESSIONAL RESPONSE
        REPORT

Select Social Security Administration
      Stewardship Efforts and
          Reported Savings
             A-08-02-22028




           NOVEMBER 2001
                                                                   Background
As a steward of taxpayer dollars, the Social Security Administration (SSA) is
accountable to the American public and the Congress for how it spends and safeguards
funds against improper payments. In Mastering the Challenge, SSA’s Strategic Plan for
2000-2005, SSA set forth program integrity as one of its strategic goals. The Plan
specifically states the strategic goal as “To ensure the integrity of Social Security
programs, with zero tolerance for fraud and abuse.”

In May 2001, at Congress’ request, SSA provided information related to its efforts to
minimize improper payments. SSA stated that $1 of every $4 in its administrative
budget was dedicated to program stewardship. SSA also provided cost-benefit ratios
for six specific program activities intended to enhance program integrity.

A cost-benefit analysis1 is one way SSA gauges its effectiveness in identifying improper
payments and meeting established program goals. Done properly, a cost-benefit
analysis provides valuable insight for management when making resource use
decisions. If not done properly, a flawed cost-benefit analysis could result in ineffective
management decisions.

Appendix A provides a brief description of SSA’s organization, programs, and
stewardship activities included in our review.




1
 We use the term cost-benefit analysis throughout this report to refer to the technique for assessing the
costs and benefits of an activity, as expressed in dollars, over a period of time.




Select SSA Stewardship Efforts and Reported Savings (A-08-02-22028)                                         1
                                           Results of Review
On July 10, 2001, Congressman E. Clay Shaw, Jr., Chairman of the Subcommittee on
Social Security, issued a letter to the Inspector General (IG) of SSA. In that letter,
Congressman Shaw requested that the Office of the Inspector General (OIG) assess
SSA stewardship efforts and the program savings those efforts generated.
Congressman Shaw specifically requested the OIG review the six cost-benefit ratios
SSA had reported for stewardship activities.

SSA Administrative Costs Devoted to Stewardship
SSA began reporting administrative costs by strategic goal in its FY 2000 Performance
and Accountability Report. In May 2001, SSA reported to Congress that $1 of every
$4 in its administrative budget was dedicated to program stewardship. In arriving at this
figure, SSA accumulated the cost of selected activities it believed related to
stewardship. For example, SSA identified such categories as continuing disability
reviews, identification and recovery of overpayments, redeterminations, earnings
maintenance, representative payee activities, and OIG operations. SSA used a
judgmental approach because accounting and cost analysis systems did not capture
costs for strategic goals relating to stewardship. Absent a system that properly
allocates costs according to goals, we were unable to quantify the actual amount of
administrative costs SSA devoted to program stewardship. We did however, review
SSA’s methodology, and for the most part, it appeared reasonable although, as
discussed further in this report, we did note opportunities for SSA to improve on the
reliability of its analyses.

Reliability of Cost-Benefit Ratios

Below are the results of our review of the six cost-benefit ratios SSA reported. We
believe SSA should clarify and/or refine its methodology in several areas.

1. Office Of Child Support Enforcement Match

SSA did not conduct a cost-benefit analysis to support the 1 to 3 ratio claimed for the
Office of Child Support Enforcement (OCSE) match. In March 2001, SSA renewed its
matching agreement to use OCSE data relying on the original cost-benefit analysis
conducted before September 1998 when the match began. The original 1 to 3 ratio
reflected cost-benefit projections based on State matches before the original
agreement. SSA management did not update the cost-benefit analysis of the OCSE
match because, based on available resources, it was not considered a priority.




Select SSA Stewardship Efforts and Reported Savings (A-08-02-22028)                       2
The costs and benefits of the current OCSE match may differ from those of the previous
program for a number of reasons. The initial analysis was based on information from
about 44 states, whereas the current OCSE match would cover all 50 states plus
Federal agencies. In addition, during the first quarter of Calendar Year (CY) 2001, SSA
provided its employees on-line access to OCSE’s data base. This on-line access
should improve payment accuracy on the front end thereby eliminating many of the
payment errors caused by inaccurate and unreported income. The improvements in
payment accuracy as a result of on-line OCSE access and the comprehensive scope of
the OCSE match could impact the reported OCSE cost-benefit ratio. SSA has plans to
update the cost-benefit analysis for the OCSE match in Fiscal Year (FY) 2002.

2. Supplemental Security Income Redeterminations

The cost-benefit ratio for Supplemental Security Income (SSI) redeterminations was
overstated because all associated costs were not included when the 1 to 7 ratio was
estimated. For its detailed cost-benefit analysis, SSA computed the 1 to 7 ratio by using
only the direct costs of field office employees performing the reviews. However, SSA
also computed a second ratio using the field office direct cost and an allocation of
applicable central office indirect costs.2 The resulting ratio was significantly lower at
1 to 4.

The full cost of any program activity rightfully includes those costs directly attributable to
that activity as well as that activity’s share in the Agency’s overall costs. Therefore, we
believe the 1 to 4 ratio would more accurately reflect the true efficiency of this activity.

3. Disability Preeffectuation Reviews

The cost-benefit ratio for disability preeffectuation reviews may be overstated because
SSA did not include all costs when calculating the 1 to 13 cost-benefit ratio. When
calculating this ratio, SSA only used the cost of regional office staff performing the
reviews. However, SSA did not include the direct cost of central office components
involved, such as the Offices of the Chief Actuary, Quality Assurance and Performance
Assessment, and Disability. In addition, SSA did not include those central office
activities that indirectly supported the preeffectuation review process. Because SSA did
not include the relevant direct and indirect costs, we believe the actual cost-benefit ratio
is lower than the 1 to 13 ratio the Agency reported.

4. Windfall Elimination/Government Pension Offset Matches with the Office of
Personnel Management

While SSA reported a single cost-benefit ratio of 1 to 6, the Agency actually conducted
separate cost-benefit analyses for windfall elimination and Government pension offsets.
SSA computed the 1 to 6 ratio for windfall elimination offset in FY 2000 and the 1 to

2
 Indirect costs are those costs that are not easily identifiable with a specific activity or function, but that
are, nonetheless, an associated cost of the activity or function.

Select SSA Stewardship Efforts and Reported Savings (A-08-02-22028)                                               3
9 ratio for Government pension offset in FY 1999. We believe both ratios are
reasonable, and if the Agency had developed a combined ratio, it would have been at
least 1 to 6. However, because the ratios vary and were developed in different fiscal
years, the Agency should report the individual ratios for windfall elimination and
Government pension offset.

5. Tax Refund Offset

SSA could not provide support for the 1 to 34 cost-benefit ratio reported for its tax
refund offset with the Department of the Treasury. However, for CYs 1998 through
2000, SSA provided us the overpayment recovery data (savings) and fees paid to the
Department of the Treasury (costs). In CY 2000, SSA realized about $81 million in
overpayment recoveries while incurring about $1 million in fees paid to the Department
of the Treasury. Based on prior years’ data and assuming relevant variables have
remained constant, we conclude that the 1 to 34 ratio is conservative.

6. Continuing Disability Reviews

Based on our analysis of the estimated costs and benefits, we believe the 1 to 11 ratio
SSA reported for continuing disability reviews in FY 1999 is reasonable. Under a
congressional mandate, SSA is working under a multi-year plan for performing periodic
continuing disability reviews. For FYs 1996 through 1998, the continuing disability
review cost-benefit ratio averaged 1 to 12. SSA’s methodology appeared consistent
with the one it followed in FY 1999.

Over time, SSA has reported different estimates of long-term continuing disability review
cost-benefit ratios. Since these are long-term estimates, it is reasonable to expect such
estimates to change as SSA gains experience and historical data from which to project.




Select SSA Stewardship Efforts and Reported Savings (A-08-02-22028)                       4
                                                            Conclusion
Our insights and comments regarding the extent of SSA’s stewardship efforts and the
reported cost-benefit ratios are not meant to imply these stewardship activities are not
currently adding value to SSA’s efforts to minimize improper payments. Rather, we
offer these comments for the Agency to improve the management information used to
make key resource decisions and to improve information provided to external
stakeholders, such as the American public and Congress.

In that vein, we believe SSA should clarify and/or refine its methodology in several
areas. First, SSA should update the analysis supporting the cost-benefit ratio reported
for its OCSE match by using current data. Second, SSA should include all associated
costs, both direct and indirect, when calculating cost-benefit ratios for SSI
redeterminations and disability preeffectuation reviews. Finally, because the ratios for
windfall elimination and Government pension offsets differ and were developed in
separate fiscal years, SSA may wish to reconsider reporting a single cost-benefit ratio
and instead report separate ratios.




Select SSA Stewardship Efforts and Reported Savings (A-08-02-22028)                        5
                                     Appendices
  Appendix A – Description of Social Security Administration Organization,
               Programs and Stewardship Activities

  Appendix B – Scope and Methodology

  Appendix C – Prior Audit Reports

  Appendix D – OIG Contacts and Staff Acknowledgments




Reliability of Cost-benefit Ratios Reported by SSA
                                                                             Appendix A

Description of Social Security Administration
Organization, Programs and Stewardship
Activities
SSA’s organization consists of a centralized management in Baltimore, Maryland, and a
nationwide network of 10 regional offices overseeing about 1,300 field offices as well as
other service and processing facilities.

SSA commits virtually all of its administrative resources to the management of three
programs authorized under titles II and XVI of the Social Security Act. Under title II, the
Old-Age and Survivors Insurance program provides for the protection of loss of income
for aged Americans as well as survivors of deceased workers. The Disability Insurance
(DI) program protects disabled workers and their dependents from loss of income.
These programs are collectively referred to as the Old-Age, Survivors and Disability
Insurance (OASDI) program. Under title XVI, the Supplemental Security Income (SSI)
program assures a minimum level of income by providing monthly cash benefits for
people who are age 65 or over, or who are blind or disabled.

Below are brief descriptions of six stewardship program activities SSA uses to enhance
program integrity.

Office of Child Support Enforcement Match

Under a computer matching agreement with the Department of Health and Human
Services, Administration for Children and Families, SSA obtains earnings information on
SSI beneficiaries from the Office of Child Support Enforcement’s National Directory of
New Hires.1 SSA uses the earnings information to detect previously unreported or
misreported income by SSI beneficiaries, thereby improving payment accuracy.

Supplemental Security Income Redeterminations

Individuals who are found eligible to receive SSI payments are subject to periodic
reevaluations of their financial status, known as redeterminations.2 During a
redetermination, the financial factors related to the recipient’s eligibility—earnings,
assets, and current living arrangements—are reviewed. SSA performs scheduled
reviews at periodic intervals depending on the likelihood of payment error and

1
    Section 453(j)(4) of the Social Security Act, 42 U.S.C. § 653(j)(4).

2
    Section 1611(c)(1) of the Social Security Act, 42 U.S.C. § 1382(c)(1).



Select SSA Stewardship Efforts and Reported Savings (A-08-02-22028)                       A-1
unscheduled reviews based on reports of changes in a recipient’s circumstances.
Redeterminations are performed in SSA’s field offices.

Disability Preeffectuation Reviews

The Social Security Act requires SSA to review at least 50 percent of all Social Security
Disability Insurance initial and reconsideration allowances made by State Disability
Determination Service agencies as well as a sufficient number of continuing disability
review continuances to ensure a high level of accuracy.3 These reviews enable SSA to
correct erroneous allowances before benefits are paid out.

Windfall Elimination/Government Pension Offsets Match with the Office of
Personnel Management

SSA obtains pension information on retired Federal employees under a computer
matching agreement with the Office of Personnel Management. SSA beneficiaries who
earn pensions through employer-sponsored retirement plans may be subject to reduced
Social Security benefits if they were not required to pay Social Security taxes. Under
the windfall elimination offset provisions of the Social Security Act, the individual’s own
benefits are subject to reduction, while under the Government pension offset provisions,
the spouse’s benefits are subject to reduction.4 This match enables SSA to improve
payment accuracy in the title II program by preventing overpayments due to unapplied
pension offsets.

Tax Refund Offset

The Debt Collection Improvement Act of 19965 gave Federal agencies additional tools
for collecting debt and designated the Department of the Treasury as the primary
collector of delinquent debt for the Government. SSA’s debt management program
includes coordinating with the Department of the Treasury to collect delinquent OASDI
and SSI debts from available Federal income tax refunds.




3
    Section 221(c)(3) of the Social Security Act, 42 U.S.C. § 421(c)(3).
4
 The Windfall Elimination Provision, SSA Publication No. 05-10045, July 2001; Government Pension
Offset, SSA Publication No. 05-10007, August 2000.
5
    Public Law No. 104-134.



Select SSA Stewardship Efforts and Reported Savings (A-08-02-22028)                                A-2
Continuing Disability Reviews

The Social Security Act authorizes and/or requires SSA to perform periodic continuing
disability reviews to ensure that only those individuals who are truly disabled continue to
receive benefits.6 SSA classifies medical impairments into one of three periodic
continuing disability review categories: medical improvement expected (which generally
necessitates a review every 6 to 18 months); medical improvement possible (which
generally necessitates a review every 3 years); and medical improvement not expected
(which generally necessitates a review every 5 to 7 years). SSA conducts periodic
continuing disability reviews using State Disability Determination Service agencies for a
full medical review in cases where improvement is expected and a direct mailing in
cases where improvement will most likely not occur.




6
 Title II general provisions are in Section 221of the Social Security Act, 42 U.S.C. § 421, and Title XVI
general provisions are in Section 1614, 42 U.S.C. § 1382c.




Select SSA Stewardship Efforts and Reported Savings (A-08-02-22028)                                     A-3
                                                                        Appendix B
Scope and Methodology
The objectives of our review were to: (1) assess the Social Security Administration’s
(SSA) methodologies for estimating administrative costs it dedicated to program
stewardship, and (2) determine the reliability of the cost-benefit ratios SSA reported for
the following activities:

·   Office of Child Support Enforcement match,
·   Supplemental Security Income redeterminations,
·   disability preeffectuation reviews,
·   windfall elimination/Government pension offset matches with the Office of Personnel
    Management,
·   tax refund offset, and
·   continuing disability reviews.

To meet our objectives, we:

·   analyzed SSA’s administrative expenditures and related budget justifications;
·   assessed SSA’s methodology for distributing administrative costs to its strategic
    goals;
·   reviewed past audit reports by SSA’s Office of the Inspector General, the General
    Accounting Office, and PricewaterhouseCoopers LLP relating to SSA’s accounting
    and cost systems and the activities under review (see Appendix C for a listing of
    audit reports);
·   met with SSA Headquarters staff in components responsible for budget, accounting,
    and special studies; and
·   reviewed SSA’s methodology for calculating cost and benefits for the most current
    period. However, we did not perform detail testing of the underlying data, nor did
    we review SSA’s forecasts of future long-term ratios.

We performed our work at SSA Headquarters in Baltimore, Maryland, and the
southeastern program service center in Birmingham, Alabama. At Headquarters, we
visited the Offices of Legislation and Congressional Affairs; the Chief Actuary; Budget;
Financial Policy and Operations; Quality Assurance and Performance Assessment
under the Deputy Commissioner for Finance, Assessment and Management; and
Disclosure Policy under the Office of the Deputy Commissioner for Disability and
Income Security Programs. We completed our fieldwork between August and October
2001. The work performed does not constitute an audit of these activities. Our work
was limited to those procedures described above to establish the reasonableness of the
information presented.



Select SSA Stewardship Efforts and Reported Savings (A-08-02-22028)
                                                                       Appendix C
Prior Audit Reports
SSA Office of the Inspector General

        Review of the Social Security Administration’s Office of Child Support
        Enforcement Pilot Evaluation, (A-01-00-20006, May 2001)

        The Social Security Administration’s Process To Segregate Continuing Disability
        Review Costs, (A-01-98-51001, August 1998)

        Review of the Social Security Administration’s Fiscal Year 1996 Annual Report
        on Continuing Disability Reviews, (A-01-97-91007, March 1998)


Other

        Social Security: Better Payment Controls for Benefit Reduction Provisions Could
        Save Millions, (GAO/HEHS-98-76, April 1998)

        Supplemental Security Income: Opportunities Exist for Improving Payment
        Accuracy, (GAO/HEHS-98-75, March 1998)

        Social Security Administration Cost Assignment Methodology Review,
        (PricewaterhouseCoopers LLP, September 1997)

        Supplemental Security Income: SSA Is Taking Steps to Review Recipients’
        Disability Status, (GAO/HEHS-97-17, October 1996)




Select SSA Stewardship Efforts and Reported Savings (A-08-02-22028)
                                                                       Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts

   James O’Hara, Acting Director, Operations Audit Division

   Kimberly A. Byrd, Deputy Director, Operations Audit Division

   Kathy L. Youngblood, Acting Deputy Director, Operations Audit Division

Acknowledgments

In addition to those named above:

   Charles Lober, Senior Auditor

   Reginia Grider, Senior Auditor

   Theresa Roberts, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-08-02-22028.




Select SSA Stewardship Efforts and Reported Savings (A-08-02-22028)
